No.

IN THE
SUPREME COURT OF THE UNITED STATES
October Term, 2020

PATRICK ALAN VERCRUYSSE,
Petitioner,
VS..

BRYAN MORRISON,
Respondent.
PROOF OF SERVICE

I, Patrick Alan Vercruysse, declare under the penalty of perjury, that on May 14,
2021, I placed in the hands of prison officials at the Lakeiand Correctional Facility, a true and
accurate copy of the enclosed Petition for Writ of Certiorari, and the Appendices, for mailing by
way of the legal mail system for prisoner legal mail. That these pleadings were addressed to:
Ms. Dana Nessel, Attorney General
Office of the Michigan Attorney
Corrections Division
Post Office Box 30217
Lansing, Michigan 48933
FURTHER, Petitioner Vercruysse says not.
Dated: this 14th day of May. 2021
/s/
’atrickA. Vercruysse/

21

No.

IN THE
SUPREME COURT OF THE UNITED STATES
October Term, 2020

PATRICK ALAN VERCRUYSSE,
Petitioner,
V.

BRYAN MORRISON,
Respondent.

DECLARATION OF COMPLIANCE UNDER 28 USC § 1746
I, Patrick Alan Vercruysse, declare under the penalty of perjury, that on February 09,
2016, I placed my Petition for Writ of Certiorari to the US Court of Appeals for the Sixth Circuit,
together with the Appendices and my In Forma Pauperis Motion, in the hands of Prison officials
at the Lakeland Correctional Facility, in Coldwater, Michigan 49036, I Further state:
1. That the pleadings were mailed out by way of the Legal Mail process, and was
signed and dated by the Resident Unit Manager on May 14, 2021, to be placed in the US Mail
with postage fully prepaid for delivery by the United States Postal Services.
2. In accordance with the Supreme Court Rule, I submitted these pleadings for delivery
prior to the due date of May 18, 2021, to prison officials under Rule 29.2. Therefore, I complied
with this rule for submission of my pleadings. Under the penalty of perjury, I hereby declare that
the above statement is true to the best of my belief, knowledge and understanding of the facts as I
know them. FURTHER, I say not.
/s/.

X

Patrick A. Vercruysse

Subscribed and sworn to before me,
2021
this Jm day of fYwJ

' m kWl --NQ7TARY PUBLIC r
MY COMMISSION EXPIRES:
_, County Michigan
Acting in

LINDA L THOMPSON
NOTARY PUBLIC, STATE OF Ml
COUNTY OF HILLSDALE
MY COMMISSION EXPIRES Jul 19.2024 i
ACTING IN COUNTY OF

V-Osiv

-i-v

LlA

« **

— "'i i

s&Liiy

